Press Release  Office of the Inspector General | Smithsonian
Skip navigation
Explore
About Us
Mission & Vision
Our History
Encyclopedia Smithsonian
Art & Design
History & Culture
Science & Technology
Visit
Overview
Hours
Maps & Directions
Floor Plans
Dining
Visiting with Kids
Visiting with Groups
Get Involved
Overview
Volunteer
Giving
Membership
Docents
Citizen Science
Host an Event
Connect
Overview
Blogs
Facebook
Flickr
Google+
Instagram
Mobile
Pinterest
Podcasts
Tumblr
Twitter
YouTube
Virtual World
Educators
Kids
Researchers
Volunteers
Members
Fellows/Interns
Home
Museums and Zoo
Research Centers
Cultural Centers
Exhibitions
Events
Collections
Newsroom
Home » Office
of the Inspector General
Parking Lot Manager Sentenced To 40 Months For Conspiring To Steal Approximately $1.4 Million In Parking Fees From Aircraft Museum
U.S. Attorney’s Office
July 19, 2013
Eastern District of Virginia
(703) 299-3700
ALEXANDRIA, Va. – Abeselom Hailemariam, 33, of Alexandria, Va., was sentenced to 40 months in prison followed by 3 years of supervised release, and ordered to pay approximately $1.4 million in restitution, for his role in a conspiracy to steal approximately $1.4 million of visitor-parking fees from the Smithsonian Institution’s Steven F. Udvar-Hazy Center in Chantilly, Va.
Neil H. MacBride, United States Attorney for the Eastern District of Virginia; Scott S. Dahl, Inspector General for the Smithsonian Institution; and Valerie Parlave, Assistant Director in Charge of the FBI Washington Field Office, made the announcement after sentencing by United States District Judge T.S. Ellis, III.
Hailemariam pleaded guilty on April 19, 2013, to conspiracy to commit theft of public money, and he is the third person to be sentenced for participating in a multi-year scheme to steal parking fees at the museum.
From March 2009 to August 2012, Hailemariam was a full-time location manager for Parking Management Inc. (“PMI”), a D.C. based firm which held a contract with the Smithsonian to manage its 2,000-vehicle parking lot.  During that time, Defendant participated in a conspiracy to steal parking revenues and began sharing in the stolen revenues taken by PMI booth attendants.  With Hailemariam’s knowledge and approval, the booth attendants withheld parking ticket stubs from paying customers and unplugged electronic vehicle counters in the entrance booths.  Hailemariam generated and submitted falsified operations reports to PMI, which were provided to the Smithsonian.  The co-conspiring booth attendants paid Hailemariam a share of the stolen revenues at the end of the day by bundling unreported cash with their shift summary reports.  Hailemariam also gave instructions to conspiring booth attendants to stop stealing at certain times when he believed the risk of detection of the conspiracy was high. The total loss due to the conspiracy is at least $1,383,195.  Based on the $15 entrance fee, it is estimated that Hailemariam participated in a conspiracy that stole from at least 92,213 museum visitors.
Prior to today’s guilty plea, former PMI employees Meseret Terefe, 37, of Silver Spring, Md. and Freweyni Mebrahtu, 46, of Sterling, Va., have been sentenced to 20 months and 27 months in prison, respectively, for their roles in the thefts.
The case was investigated by Smithsonian Office of the Inspector General and the Federal Bureau of Investigation.  Assistant United States Attorney Jasmine Yoon and Special Assistant United States Attorney James McDonald prosecuted the case on behalf of the United States.
A copy of this press release may be found on the website of the United States Attorney’s Office for the Eastern District of Virginia at  http://www.usdoj.gov/usao/vae.
Mobile Site |
Contact Us |
FAQs |
About Us |
E-News |
Employment |
Site Map
Privacy |
Terms of Use |
Administration |
Governance |
Policies & Reports |
Accessibility
Records Requests |
Inspector General |
General Counsel |
Supplier Diversity and EEO
Page Last Modified: 7/22/2013